Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    HIGHER REBATES FOR
BRAND-NAME DRUGS RESULT IN
 LOWER COSTS FOR MEDICAID
COMPARED TO MEDICARE PART D




                    Daniel R. Levinson
                     Inspector General

                      August 2011
                     OEI-03-10-00320
   E X E C U T I V E                                    S U M M A R Y


                  OBJECTIVES
                  1. To compare pharmacy reimbursement under Medicare Part D to
                     pharmacy reimbursement under Medicaid for selected drugs.
                  2. To compare manufacturer rebates under Medicare Part D to
                     manufacturer rebates under Medicaid for selected drugs.
                  3. To compare net drug costs under both programs and determine the
                     effect that differences may have on overall program costs.


                  BACKGROUND
                  Section 3313(b) of the Affordable Care Act (ACA), P.L. 111-148, directs
                  the Office of Inspector General to complete a study by October 1, 2011,
                  that (1) compares the prices paid (including rebates) for 200 covered
                  Part D drugs by Part D plan sponsors to the prices paid (including
                  rebates) for the same drugs by State plans under Medicaid and
                  (2) assesses the impact of price differences.
                  Medicare Part D provides an optional prescription drug benefit to all
                  Medicare beneficiaries. The Centers for Medicare & Medicaid Services
                  (CMS) contracts with private companies (hereinafter referred to as
                  sponsors) to provide drug coverage to beneficiaries who choose to enroll
                  in the program. The Part D program relies on sponsors to negotiate
                  drug manufacturer rebates to reduce the cost of the program to
                  beneficiaries and the Government. Because rebates are subtracted from
                  the sponsor’s costs, they lower the beneficiary’s premium and the cost to
                  the Government.
                  The Medicaid drug rebate program was established to reduce
                  expenditures for Medicaid prescription drugs. For Federal payment to
                  be available for covered outpatient drugs under Medicaid, the Social
                  Security Act mandates that drug manufacturers enter into rebate
                  agreements with the Secretary of Health & Human Services, report
                  quarterly average manufacturer prices (AMP) to CMS for each of their
                  covered outpatient drugs, and pay quarterly rebates to State Medicaid
                  agencies. The Medicaid rebate amount for any given drug generally
                  depends on the quarterly AMP. In addition, if the AMP for a brand-
                  name drug has risen faster than inflation, then the manufacturer must
                  pay an additional rebate.
                  In 2005, Medicaid paid in excess of $43 billion for prescription drugs;
                  however, drug expenditures decreased by almost half in the following

OEI-03-10-00320   H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   i
E   X   E C     U T   I     V      E           S     U M             M    A   R Y


                          year, when drug coverage for dual eligible beneficiaries (i.e.,
                          beneficiaries eligible for both Medicare and Medicaid) shifted from
                          Medicaid to Medicare Part D. Medicaid expenditures for prescription
                          drugs totaled just under $26 billion in 2009. In the last year before
                          coverage for dual eligibles was moved to Part D (2005), Medicaid
                          rebates totaled about 26 percent of drug expenditures. However,
                          although Medicaid expenditures decreased by almost half after 2005,
                          Medicaid rebates as a percentage of expenditures increased. As a result
                          of these rebates, Medicaid recouped between 29 and 38 percent of its
                          expenditures for prescription drugs each year between 2006 and 2009,
                          yielding an average annual savings of about $8 billion.
                          For this review, we compared pharmacy reimbursement and rebates
                          under Medicare Part D and Medicaid for the 100 brand-name and
                          100 generic drugs with the highest Part D expenditures. We then
                          examined each program’s net costs and determined the effect of
                          differences on overall costs.


                          FINDINGS
                          In 2009, pharmacy reimbursement amounts under Medicare Part D
                          and Medicaid were similar for most selected brand-name drugs but
                          differed substantially for over half of selected generic drugs. For
                          70 of the 100 brand-name drugs under review, the difference between
                          the average Part D and Medicaid unit reimbursement amounts was less
                          than 2 percent. For more than half (53) of the generic drugs under
                          review, pharmacy reimbursement under Part D and Medicaid differed
                          by more than 15 percent.
                          For all 30 brand-name drugs for which the reimbursement difference
                          exceeded 2 percent, it was Medicaid that paid more. Overall, Medicaid
                          reimbursement was higher for 63 brand-name drugs; Part D
                          reimbursement was higher for the remaining 37.
                          In 2009, Medicaid unit rebate amounts for brand-name drugs were
                          substantially higher than Part D unit rebate amounts; rebates for
                          generic drugs under both programs were negligible. Overall,
                          Medicaid unit rebate amounts were 3 times greater than Part D unit
                          rebate amounts at the median for the 100 brand-name drugs under
                          review. For 68 of these drugs, manufacturers paid at least twice as
                          much per unit in Medicaid rebates compared to amounts paid per unit
                          under Part D. Conversely, Part D unit rebate amounts exceeded



    OEI-03-10-00320       H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   ii
E   X   E C     U T   I     V      E           S     U M             M    A   R Y


                          Medicaid unit rebate amounts for just five of the brand-name drugs
                          under review.
                          Unlike rebates for brand-name drugs, rebates for generic drugs had
                          little impact in reducing expenditures. Part D sponsors collected
                          virtually no Part D rebates for generic drugs, and Medicaid rebates for
                          generic drugs reduced total expenditures by only 3 percent.
                          Medicaid rebates were substantially higher than Part D rebates because
                          manufacturers for virtually all brand-name drugs under review paid
                          inflation-based rebates in addition to basic rebates. For 98 of the
                          100 brand-name drugs under review, manufacturers paid this
                          additional rebate in all 4 quarters of 2009. In the aggregate, 55 percent
                          of the total Medicaid rebates owed by manufacturers for the 100 brand-
                          name drugs under review ($1.6 billion out of $2.9 billion) are owed
                          because AMPs rose faster than inflation.
                          After accounting for rebates, Medicaid net costs for selected
                          brand-name drugs were much lower than Part D net costs.
                          Although average Part D and Medicaid reimbursement amounts for
                          most brand-name drugs under review were similar, Medicaid unit
                          rebates for these drugs were substantially higher than those under Part
                          D. Consequently, Medicaid’s net unit costs (i.e., pharmacy
                          reimbursement minus rebates) were much lower than net unit costs
                          under Part D in 2009.
                          As previously stated, Medicaid unit reimbursement amounts were
                          actually higher than Part D unit reimbursement amounts for
                          63 brand-name drugs. However, after accounting for rebates, Medicaid
                          net unit costs were higher than Part D net unit costs for only 7 drugs;
                          Part D net unit costs exceeded Medicaid unit costs for the remaining 93.
                          As further evidence of Medicaid’s substantially higher unit rebate
                          amounts, Medicaid collected nearly two-thirds as much in rebates as
                          Part D ($2.9 billion vs. $4.5 billion) for the selected drugs despite having
                          only about one-fourth of the expenditures ($6.4 billion vs. $24 billion).
                          In 2009, rebates reduced Part D expenditures by 19 percent for the
                          100 brand-name drugs under review (from $24 billion to $19.5 billion).
                          Medicaid rebates accounted for a substantially higher percentage of
                          total expenditures, reducing expenditures by 45 percent (from
                          $6.4 billion to $3.5 billion) for these 100 drugs.




    OEI-03-10-00320       H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   iii
E   X   E C     U T   I     V      E           S     U M             M    A   R Y



                          CONCLUSION
                          Prescription drug rebates reduce the program costs of both Medicare
                          Part D and Medicaid. Medicaid rebates are defined by statute;
                          additional rebates are required when prices for brand-name drugs
                          increase faster than inflation. Unlike the Medicaid program, Part D
                          sponsors (or contractors acting on their behalf) negotiate rebates with
                          drug manufacturers without any statutory requirements on rebate
                          amounts. In fact, the law establishing the Part D program expressly
                          prohibits the Government from instituting a price structure for the
                          reimbursement of covered Part D drugs.
                          In this review, we found that Part D sponsors and State Medicaid
                          agencies paid pharmacies similar amounts for most brand-name drugs
                          under review. However, statutorily defined Medicaid unit rebate
                          amounts for brand-name drugs exceeded Part D unit rebate amounts by
                          a substantial margin. As a result, Medicaid collected nearly two-thirds
                          as much as Part D in rebates for the 100 brand-name drugs ($2.9 billion
                          vs. $4.5 billion), despite having only about one-fourth of the expenditure
                          ($6.4 billion vs. $24 billion).
                          Medicaid rebates for brand-name drugs may increase as a result of ACA
                          provisions that raise the rebate percentage. Given the potential impact
                          on beneficiary and Government expenditures, we believe that it is
                          important for CMS to continually examine any differences in how each
                          program collects rebates.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS agreed with our overall findings. CMS stated that it was pleased
                          OIG confirmed that the Medicaid rebate program is working well and
                          providing substantial rebates to offset the high costs of prescription
                          drugs. CMS agreed that the ACA may further increase Medicaid
                          rebates for brand-name drugs and that it is important to continue to
                          examine the differences in how each program collects rebates. We did
                          not make any changes to the report based on CMS’s comments.




    OEI-03-10-00320       H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   iv
   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                    In 2009, pharmacy reimbursement amounts under Medicare
                    Part D and Medicaid were similar for most selected brand-name
                    drugs but differed substantially for over half of selected generic
                    drugs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                    In 2009, Medicaid unit rebate amounts for brand-name drugs
                    were substantially higher than Part D unit rebate amounts;
                    rebates for generic drugs under both programs were negligible . . 15

                    After accounting for rebates, Medicaid net costs for selected
                    brand-name drugs were much lower than Part D net costs . . . . . 17


         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                    Agency Comments and Office of Inspector General Response. . . . 19


         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                    Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To compare pharmacy reimbursement under Medicare Part D to
                     pharmacy reimbursement under Medicaid for selected drugs.
                  2. To compare manufacturer rebates under Medicare Part D to
                     manufacturer rebates under Medicaid for selected drugs.
                  3. To compare net drug costs under both programs and determine the
                     effect that differences may have on overall program costs.


                  BACKGROUND
                  Section 3313(b) of the Affordable Care Act (ACA), P.L. 111-148, directs the
                  Office of Inspector General (OIG) to complete a study by October 1, 2011,
                  that (1) compares the prices paid (including rebates) for 200 covered
                  Part D drugs by Part D plan sponsors to the prices paid (including rebates)
                  for the same drugs by State plans under Medicaid and (2) assesses the
                  impact of price differences.
                  Medicare Part D Drug Coverage
                  The Medicare prescription drug program, known as Medicare Part D,
                  provides an optional prescription drug benefit to all Medicare
                  beneficiaries. 1 The Centers for Medicare & Medicaid Services (CMS)
                  contracts with private companies, known as Part D plan sponsors
                  (hereinafter referred to as sponsors), to provide drug coverage to the
                  nearly 30 million beneficiaries who choose to enroll in the program. 2
                  Part D expenditures totaled $61 billion in 2009. 3
                  Sponsors offer benefits through (1) stand-alone prescription drug plans
                  (PDP) and (2) Medicare Advantage prescription drug plans (MA-PD).
                  MA-PDs provide integrated medical coverage, including drugs, through
                  managed care. Most beneficiaries are responsible for certain costs,
                  which may include a monthly premium, an annual deductible, and



                      1 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                  P.L. 108-173.
                      2 CMS,      2010 Enrollment Information. Accessed at http://www.cms.hhs.gov on
                  March 11, 2011.
                      3 The Boards of Trustees, Federal Hospital Insurance and Federal Supplementary
                  Medical Insurance Trust Funds, 2010 Annual Report of the Boards of Trustees of the
                  Federal Hospital Insurance and Federal Supplementary Medical Insurance Trust Funds,
                  p. 10. Accessed at http://www.cms.gov on October 13, 2010.



OEI-03-10-00320   H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   1
I   N T    R O        D   U      C T          I    O      N


                              coinsurance or copayments. However, certain low-income beneficiaries
                              are eligible to receive assistance to pay some or all of these costs.4
                              Dual eligibles. When Medicare Part D was implemented in 2006, more
                              than 6 million low-income senior citizens and disabled individuals were
                              full-benefit dual eligibles, i.e., beneficiaries enrolled in both Medicare
                              and Medicaid. Until December 31, 2005, dual eligibles received
                              outpatient drug benefits through Medicaid. However, on
                              January 1, 2006, Federal financial participation ended for Medicaid
                              drug coverage for dual eligibles.5 Instead, dual eligibles now receive
                              drug coverage under Part D.
                              Medicare Part D Drug Reimbursement
                              Beneficiaries enrolled in Medicare Part D typically obtain drugs from
                              pharmacies. Pharmacy reimbursement (i.e., the point-of-sale price)
                              under Part D is based on prices negotiated between pharmacies and
                              sponsors (hereinafter referred to as negotiated prices). Regulation
                              defines negotiated prices as prices for covered Part D drugs that:
                              (1) the sponsor (or its affiliated contractor) and pharmacy have
                              negotiated as the amount the pharmacy will receive for a particular
                              drug, (2) are reduced by price concessions 6 that the sponsor has elected
                              to pass through to Part D enrollees at the point of sale, and (3) include
                              any pharmacy dispensing fees. 7 Negotiated prices contain two main
                              elements:8
                              1. Ingredient cost – the amount paid to the pharmacy for the drug
                                 itself.
                              2. Dispensing fee – the amount paid to the pharmacy for dispensing
                                 the drug. This amount includes only those activities related to the
                                 transfer of the drug from the pharmacy to the beneficiary, including
                                 charges associated with mixing the drug, delivery, and overhead.9




                                  4 42 CFR § 423.780 and 42 CFR § 423.782.
                                  5 Section 1935 of the Social Security Act (the Act).
                                  6 Rebates from drug manufacturers are the most common type of price concession.
                                  7 42 CFR § 423.100.
                                  8 Negotiated prices for Medicare Part D also include a data element for sales tax. See

                              CMS, Instructions: Requirements for Submitting Prescription Drug Event Data. Accessed
                              at http://www.cms.hhs.gov on October 4, 2010.
                                9 CMS, Instructions: Requirements for Submitting Prescription Drug Event Data.

                              Accessed at http://www.cms.hhs.gov on October 4, 2010.



    OEI-03-10-00320           H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   2
I   N T    R O        D   U      C T          I    O      N


                              The ingredient cost of the drug is usually based on the lowest of
                              (1) the average wholesale price (AWP) discounted by a specified
                              percentage, 10 (2) the maximum allowable cost, or (3) the pharmacy’s
                              usual and customary charge to the public.11 The portion of the
                              negotiated price paid by the plan sponsor and the portion paid by the
                              beneficiary are determined by the plan’s cost-sharing rules.
                              Reimbursement is negotiated among sponsors, manufacturers, and
                              pharmacies; the law creating the Part D program expressly prohibits
                              the Government from establishing a price structure for the
                              reimbursement of drugs under Part D. 12
                              All sponsors submit data and information necessary for CMS to
                              determine and make payment. 13 Every time a beneficiary has a
                              prescription filled under Part D, his or her plan must submit a
                              prescription drug event (PDE) record. The PDE record contains drug
                              cost, payment, and utilization data. 14
                              Medicare Part D Rebates
                              Sponsors negotiate drug manufacturer rebates to reduce the cost of the
                              Part D program to beneficiaries and the Government. Sponsors either
                              negotiate directly with manufacturers for rebates or contract with a
                              third party entity to negotiate on their behalf; in either case they are
                              required to report these rebates to CMS.
                              Before the beginning of each year, sponsors submit a bid to CMS for
                              each plan they intend to offer. 15 The bids are the sponsors’ estimates of
                              the cost to provide the prescription drug benefit to each beneficiary and
                              include drug costs, utilization, and rebates. In its bid instructions, CMS

                                10 AWPs are listed in commercial publications. They are derived from manufacturer-
                              reported data for both brand-name and generic drugs and are not defined in law or
                              regulation. Previous OIG work found that AWPs are often significantly higher than the
                              prices that drug manufacturers, wholesalers, and similar entities actually charge the
                              physicians and pharmacies that purchase these drugs. For example, see OIG, Medicaid
                              Pharmacy – Actual Acquisition Cost of Brand Name Prescription Drug Products
                              (A-06-00-00023), August 2001; Medicaid Pharmacy – Actual Acquisition Cost of Generic
                              Prescription Drug Products (A-06-01-00053), March 2002; and Medicaid’s Use of Revised
                              Average Wholesale Prices (OEI-03-01-00010), September 2001.
                                  11 If ingredient cost is based on the usual and customary charge, the pharmacy is not

                              paid a dispensing fee.
                                  12 Section 1860D-11(i) of the Act.
                                  13 Sections 1860D-15(c)(1)(C) and (d)(2) of the Act, 42 CFR § 423.322.
                                  14 CMS, Instructions: Requirements for Submitting Prescription Drug                                         Event Data.
                              Accessed at http://www.cms.hhs.gov on October 4, 2010.
                                  15 42 CFR § 423.265.




    OEI-03-10-00320           H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   3
I   N T    R O        D   U      C T          I     O     N


                              defines expected rebates as the sponsor’s best estimate of price
                              concessions that decrease the sponsor’s costs for Part D drugs.16 CMS
                              uses the bids to calculate each plan’s beneficiary premium. Because
                              expected rebates are subtracted from the sponsor’s expected costs, they
                              lower the bid amount and, thus, the beneficiary’s premium.
                              CMS, using these bids, makes prospective payments to sponsors to cover
                              the cost of providing the Part D benefit. Therefore, the overall cost of
                              the program to the Government is reduced because expected rebates are
                              subtracted from expected costs. In an annual rebate report after the
                              end of the year, sponsors must provide CMS with information about the
                              actual costs, including the amount of rebates that they received. 17 CMS
                              uses these reports to reconcile its prospective payments with sponsors’
                              actual costs and thus, to determine whether sponsors owe money to the
                              Government or vice versa.
                              Medicaid Drug Coverage
                              Title XIX of the Act established Medicaid, a program administered by
                              States and financed with State and Federal funds. Medicaid pays for
                              medical care and health-related assistance for certain vulnerable and
                              needy individuals and families. All 50 States and the District of
                              Columbia provide coverage for drugs under Medicaid. In 2005,
                              Medicaid paid in excess of $43 billion for prescription drugs; however,
                              drug expenditures decreased by almost half in the following year, when
                              drug coverage for dual eligible beneficiaries shifted from Medicaid to
                              Part D. Since 2006, Medicaid payments for prescription drugs have
                              remained relatively steady (see Table 1 on page 6). In 2009, Medicaid
                              expenditures for drugs totaled approximately $26 billion.
                              Medicaid Drug Reimbursement
                              Medicaid beneficiaries typically receive covered drugs through
                              pharmacies, which are reimbursed for them by State Medicaid agencies.
                              Federal regulations require, with certain exceptions, that each State
                              Medicaid agency’s reimbursement for covered outpatient drugs not
                              exceed (in the aggregate) the lower of the provider’s usual and
                              customary charge to the public for the drugs or the estimated




                                16 CMS, Instructions for Completing the Prescription Drug Plan Bid Pricing Tool for

                              Contract Year 2011, April 2010.
                                  17 CMS,         Medicare Part D Reporting Requirements, January 2010.



    OEI-03-10-00320           H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   4
I   N T    R O        D   U      C T          I    O      N


                              acquisition cost for drugs (i.e., the ingredient cost) plus a reasonable
                              dispensing fee. 18 These costs are defined as:
                              1. Ingredient cost. Medicaid payment for ingredient cost is based on
                                 the estimated acquisition cost. Regulations define estimated
                                 acquisition cost to be the State’s “best estimate” of the price
                                 generally and currently paid by providers for the drug.19 CMS
                                 allows States flexibility in determining what constitutes the
                                 ingredient cost of drugs covered by their Medicaid programs;
                                 therefore, Medicaid reimbursement varies across States. During the
                                 period covered by this review (i.e., 2009), most States calculated the
                                 estimated acquisition cost based on the AWP discounted by a
                                 specified percentage. 20 For certain drugs, States also used the
                                 Federal upper limit or State maximum allowable cost programs in
                                 setting reimbursement amounts. 21, 22
                              2. Dispensing fee. State Medicaid agencies also pay a “reasonable”
                                 dispensing fee to pharmacies for pharmacy services. Each State
                                 determines its Medicaid dispensing fee, which generally ranged from
                                 $1.75 and $7.50 per prescription as of December 2009.23
                              The Medicaid Drug Rebate Program
                              To reduce expenditures for Medicaid prescription drugs, CMS and the
                              States have implemented certain cost containment measures, including
                              the Medicaid drug rebate program. For Federal payment to be available
                              for covered outpatient drugs under Medicaid, the Act mandates that
                              drug manufacturers enter into rebate agreements with the Secretary of




                                  18 42 CFR § 447.512.
                                  19 42 CFR § 447.502.
                                  20 CMS, Medicaid Prescription
                                                              Reimbursement Information by State – Quarter Ending
                              December 2009. Accessed at http://www.cms.hhs.gov on March 9, 2011.
                                21 The Federal upper limit program limits Medicaid reimbursement for certain generic

                              drugs and ensures that the Federal Government acts as a prudent buyer by taking
                              advantage of current market prices for generic drugs.
                                22 A maximum allowable cost is a ceiling price that applies to a group of generic drugs.

                              Individual States determine which drugs are included in their programs and the methods
                              by which the maximum allowable cost for a drug is calculated.
                                  23 CMS,
                                        Medicaid Prescription Reimbursement Information by State – Quarter Ending
                              December 2009. Accessed at http://www.cms.hhs.gov on March 9, 2011. This range
                              excludes drugs dispensed through nonretail pharmacies, compounded drugs, and home
                              intravenous therapy.



    OEI-03-10-00320           H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   5
I   N T    R O        D   U      C T          I    O      N


                              Health & Human Services and pay quarterly rebates to State Medicaid
                              agencies.24
                              In the last year before coverage for dual eligibles was moved to Part D
                              (2005), Medicaid collected $11.2 billion in rebates from manufacturers
                              (26 percent of total drug expenditures). However, as Table 1 illustrates,
                              although Medicaid expenditures decreased by almost half after 2005,
                              Medicaid rebates as a percentage of expenditures increased. As a result
                              of these rebates, Medicaid recouped between 29 and 38 percent of its
                              expenditures for prescription drugs each year between 2006 and 2009,
                              yielding an average annual savings of about $8 billion. 25, 26 See Table 1
                              for additional information on Medicaid expenditures and rebates.
                              Table 1: Medicaid Expenditures and Rebates 2005–2009

                                                                                                         Medicaid              Rebates as a Percentage of
                                Year                                       Expenditures
                                                                                                         Rebates                            Expenditures

                                2005                                         $43.2 billion            $11.2 billion                                                 26%
                                2006                                         $22.5 billion              $8.6 billion                                                38%
                                2007                                         $22.6 billion              $6.6 billion                                                29%
                                2008                                         $24.0 billion              $8.0 billion                                                33%
                                2009                                         $25.6 billion              $9.0 billion                                                35%

                              Source: CMS Medicaid data for calendar years 2005–2009.


                              As part of the Medicaid drug rebate program, manufacturers must
                              provide CMS with the average manufacturer price (AMP) for each of
                              their national drug codes (NDC) on a quarterly basis.27 An NDC is a
                              unique 11-digit identifier that represents a specific manufacturer,
                              product, and package size. During the period covered by this review,
                              the AMP was generally defined as the average price paid to the




                                  24 Sections 1927(a)(1) and (b)(1) of the Act. Sections 1927(k)(2–3) of the Act define a

                              covered outpatient drug.
                                25 According to CMS staff, the substantial increase in rebates as a percentage of

                              expenditures from 2005 to 2006 may be partially explained by the time lag between when
                              expenditures occur and when the rebates are actually collected.
                                  26 States can negotiate supplemental rebates with drug manufacturers that are in

                              addition to the statutory rebates in Table 1. From 2005 to 2009, State Medicaid agencies
                              collected approximately $1 billion per year in supplemental rebates that would further
                              reduce Medicaid expenditures.
                                  27 Section 1927(b)(3) of the Act.




    OEI-03-10-00320           H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS    FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D    6
I   N T    R O        D   U      C T          I    O      N


                              manufacturer for the drug in the United States by wholesalers for
                              drugs distributed to the retail pharmacy class of trade. 28
                              The Medicaid unit rebate amount (URA) for a drug generally depends
                              on the quarterly AMP submitted by the manufacturer, as well as
                              whether the drug is brand-name or generic (because the Medicaid
                              rebate for brand-name drugs is higher).29 From 1996 to 2009, the basic
                              URA for a brand-name drug was either 15.1 percent of the AMP or the
                              difference between the AMP and best price (whichever was greater).30,
                              31 The basic URA for a generic drug was 11 percent of the AMP.


                              Furthermore, if the AMP for a brand-name drug has risen faster than
                              inflation, then the drug’s manufacturer must pay an additional rebate. 32
                              To determine whether a brand-name drug is subject to the increased
                              rebate amount, CMS compares the reported AMP for a given quarter to
                              its inflation-adjusted baseline AMP. The baseline AMP for a drug is the
                              AMP for the first quarter after the drug’s initial market date. To adjust
                              the baseline AMP for inflation, CMS first divides the baseline AMP by
                              the baseline Consumer Price Index–Urban (CPI-U), which is the CPI-U
                              for the first month prior to the first quarter after the drug’s initial
                              market date. The result of that calculation is then multiplied by the
                              quarterly CPI-U, which is the CPI-U for the month prior to the quarter
                              being calculated. If the reported AMP is greater than the inflation-
                              adjusted baseline AMP, then the difference is added to the URA.
                              CMS calculates a URA for each NDC and transmits that information to
                              States. States then determine the total quarterly rebates that


                                 28 Section 1927(k)(1) of the Act. Section 2503 of the ACA changed the definition of AMP,

                              effective October 2010. That change is not relevant for the purposes of this study.
                                29 Brand-name drugs are approved by the Food and Drug Administration (FDA) under a
                              new drug application and are generally sold by one manufacturer. Generic drugs are
                              approved by FDA under abbreviated new drug applications and are generally sold by
                              multiple manufacturers at a lower cost.
                                  30 Section 1927(c) of the Act. Pursuant to section 1927(b)(3)(A)(i)(II) of the Act,

                              manufacturers must provide a “best price” for each of their brand-name drugs on a
                              quarterly basis. Generally speaking, best price is defined by section 1927(c)(1)(C) of the Act
                              as the lowest price available from the manufacturer to any purchaser in the United States,
                              with certain exceptions.
                                 31 Effective January 2010, § 2501(a) of the ACA increases the URA for brand-name drugs
                              to the greater of 23.1 percent of the AMP or the difference between AMP and best price
                              (with certain exceptions). Section 2501(b) of the ACA increases the URA for generic drugs
                              to 13 percent of the AMP.
                                  32 Section 1927(c)(2) of the Act.




    OEI-03-10-00320           H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   7
I   N T    R O        D   U      C T          I    O      N


                              participating manufacturers owe by multiplying the URA for a specific
                              drug by the number of units of that drug dispensed to Medicaid
                              beneficiaries in that quarter.
                              Related OIG Work
                              A February 2009 OIG report compared pharmacy reimbursement under
                              Medicare Part D and Medicaid for 79 drugs. 33 It did not compare total
                              program expenditures and did not determine the impact of rebates. The
                              report found that, nationally, the average pharmacy reimbursement
                              amounts for both programs were similar for most selected brand-name
                              drugs. The report also found that nationally, Medicaid pharmacy
                              reimbursement amounts typically exceeded those in Part D for selected
                              generic drugs.
                              A March 2011 OIG report examined manufacturer rebates under
                              Part D. 34 That report found that sponsors reported receiving
                              $6.5 billion in drug manufacturer rebates in 2008. These rebates should
                              reduce the cost of the Part D program. However, the report also found
                              that sponsors underestimated rebates in 69 percent of their bids for
                              plan year 2008, causing beneficiary premiums and Government
                              payments to be higher than they otherwise would have been.


                              METHODOLOGY
                              Scope
                              For this review, we compared pharmacy reimbursement and rebates
                              under Medicare Part D and Medicaid for selected high-expenditure
                              brand-name and generic drugs (i.e., NDCs). We selected these drugs
                              based on PDE data from both PDP and MA-PD sponsors. We selected
                              the 100 brand-name drugs with the highest Part D expenditures in
                              retail pharmacies in 2009 and the 100 generic drugs with the highest
                              Part D expenditures in retail pharmacies in 2009. Part D expenditures
                              for these 200 drugs totaled $27 billion ($24 billion for brand-name drugs
                              and $3 billion for generic drugs). Medicaid expenditures for these




                                33 OIG, Comparing Pharmacy Reimbursement: Medicare Part D to Medicaid,

                              OEI-03-07-00350.
                                  34 OIG,     Concerns With Rebates in the Medicare Part D Program, OEI-02-08-00050.



    OEI-03-10-00320           H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   8
I   N T    R O        D   U      C T          I    O      N


                              200 drugs totaled $6.8 billion ($6.4 billion for brand-name drugs and
                              $449 million for generic drugs). 35
                              Data Collection
                              Medicare Part D. We obtained PDE records from CMS for all covered
                              drugs dispensed in retail pharmacies with dates of service in 2009 and
                              aggregated these data to identify expenditures by NDC. We determined
                              whether a drug was brand-name or generic using drug type information
                              from two national drug compendia (Redbook and First DataBank), as
                              well as Medicaid drug product data. We used data from the National
                              Council of Prescription Drug Programs (NCPDP) that identify the
                              primary pharmacy type to limit PDE records to drugs dispensed in
                              retail pharmacies. 36 We then identified the top NDCs (100 brand-name
                              drugs, 100 generic drugs) by total Part D expenditures (i.e., the sum of
                              the ingredient cost and dispensing fee) based on these PDE claims data.
                              The 200 selected NDCs were associated with 44 manufacturers.
                              Medicaid. We obtained State Medicaid payment, utilization, and
                              dispensing fee data for 2009 from CMS. Using these files, we
                              determined State Medicaid agencies’ expenditures for and utilization of
                              the 200 drugs identified above.
                              Rebates. To obtain Medicare Part D rebate data, we sent letters to the
                              44 manufacturers of the 200 selected drugs in December 2010. We
                              asked them to report how much they paid in Part D rebates, by NDC, to
                              Part D sponsors in 2009 for drugs dispensed in retail pharmacies. All
                              manufacturers provided rebate data.37
                              Several manufacturers that paid Part D rebates were unable to limit
                              their rebate data to drugs dispensed in retail pharmacies. Some of
                              these provided estimates of rebates based on utilization; others did not
                              provide these estimates. For drugs sold by manufacturers that did not
                              provide actual or estimated retail-specific data, we calculated rebate
                              estimates ourselves. To do this, we used PDE data to calculate what



                                35 According to summary data for individual NDCs, Part D expenditures for these

                              200 drugs accounted for almost half of program expenditures for drugs dispensed in retail
                              pharmacies in 2009 and Medicaid expenditures for these 200 drugs accounted for about
                              30 percent of program expenditures in 2009.
                                  36 A retail pharmacy has a dispenser type classification of “01” in NCPDP data.

                                37 Manufacturers of eight of the selected brand-name drugs reported that either (1) they

                              do not provide rebates for these drugs or (2) these drugs are not dispensed in retail
                              pharmacies.



    OEI-03-10-00320           H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   9
I   N T    R O        D   U      C T          I    O      N


                              percentage of a drug’s utilization was dispensed through retail
                              pharmacies and calculated rebates proportionally.
                              For Medicaid rebates, we obtained 2009 quarterly URAs from CMS for
                              each of the drugs under review to calculate total rebates. URAs include
                              both the basic and additional rebates (where applicable).
                              Data Analysis
                              Pharmacy reimbursement amounts. We first compared 2009 pharmacy
                              reimbursement of sponsors with that of State Medicaid agencies. To do
                              this, we calculated the average Part D and Medicaid unit
                              reimbursement amounts for each of the selected drugs by dividing total
                              expenditures (ingredient costs and dispensing fees) by the total quantity
                              dispensed. We calculated the percentage differences in pharmacy
                              reimbursement between Medicare Part D and Medicaid for each
                              brand-name drug and each generic drug under review and compared
                              these differences. Additionally, we calculated the median percentage
                              differences in pharmacy reimbursement between Medicare Part D and
                              Medicaid for all brand-name drugs and all generic drugs under review.
                              Manufacturer rebates. We then calculated and compared Part D and
                              Medicaid rebates. We calculated total 2009 Part D rebates for the
                              200 drugs based on manufacturer submissions and then determined a
                              unit rebate amount for each drug by dividing total rebates by quantity
                              dispensed. For Medicaid, we calculated total 2009 rebates by
                              multiplying the quarterly URAs 38 by quarterly utilization for each drug
                              and adding these totals. We calculated a single Medicaid unit rebate
                              amount in 2009 for each drug by dividing total rebates by quantity
                              dispensed. We then determined the percentage differences in unit
                              rebate amounts between the two programs for each brand-name and
                              each generic drug under review and compared these differences. We
                              also calculated the median percentage differences in rebates between
                              the two programs for all brand-name and all generic drugs under
                              review.
                              To gain further insight into the differences between Part D and
                              Medicaid rebates, we determined whether the manufacturers of the
                              brand-name drugs under review paid inflation-based rebates to States
                              in addition to the basic Medicaid rebates. To do this, we calculated the

                                  38 “URA” refers to CMS’s calculated amount to determine rebates; “unit rebate amount”
                              hereinafter refers to OIG’s calculation of a volume-weighted average in 2009 of the
                              quarterly URAs.



    OEI-03-10-00320           H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   10
I   N T    R O        D   U      C T          I    O      N


                              quarterly basic rebate amount for each brand-name drug (i.e.,
                              15.1 percent of AMP or the difference between AMP and best price) and
                              subtracted it from the drug’s quarterly URA. The difference was the
                              amount of additional rebate that was owed because the drug’s price
                              increased faster than the rate of inflation.
                              Net costs. Finally, we determined the effect of differences in pharmacy
                              reimbursement and rebates on expenditures by calculating net costs
                              under each program. To calculate net costs, we subtracted unit rebate
                              amounts from unit reimbursement amounts for each drug under review.
                              We calculated the percentage differences in net unit costs between
                              Medicare Part D and Medicaid for each drug under review and
                              compared these differences. We also calculated the median percentage
                              differences in net costs between Medicare Part D and Medicaid for all
                              brand-name drugs and all generic drugs under review.
                              Limitations
                              The findings in this report apply only to the 200 drugs we reviewed
                              and are not projectable to all drugs covered under Part D and
                              Medicaid. We did not verify the accuracy or completeness of CMS’s
                              Part D PDE data; CMS’s Medicaid utilization data; manufacturer
                              rebate submissions; CMS’s Medicaid rebate data; pharmacy
                              classifications; or drug type data from CMS, Redbook, or First
                              DataBank.
                              The prices that serve as the bases for Medicaid rebate data (i.e.,
                              AMPs and best prices) are subject to revision. Therefore, the findings
                              in this report are based on rebate data available at the time of the
                              analysis. Part D and Medicaid rebate data are confidential;
                              consequently, all of our findings are reported in the aggregate.39
                              Additionally, we did not collect data on supplemental rebates
                              negotiated by States, nor did we include them in the analysis.
                              Several manufacturers that paid Part D rebates were unable to limit
                              their rebate data to drugs dispensed in retail pharmacies. In these
                              cases, the manufacturers either provided estimates of these rebates or
                              we calculated estimates based on reported rebates for drugs
                              dispensed to all sources.




                                 39 Additionally, § 3313(b)(2)(B) of the ACA prohibits OIG from publishing proprietary

                              information in this report.



    OEI-03-10-00320           H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   11
I   N T    R O        D   U      C T          I    O      N


                              The ACA changed the definition of AMP as well as the URA for
                              Medicaid drug rebates. In addition, provisions in the ACA increased
                              Medicaid rebate percentages and additional Part D price reductions
                              on certain brand-name drugs for certain beneficiaries in 2011. 40
                              However, these provisions were not in effect during the period under
                              review.
                              Standards
                              This study was conducted in accordance with the Quality Standards for
                              Inspection and Evaluation issued by the Council of the Inspectors
                              General on Integrity and Efficiency.




                                  40 Section 3301 of the ACA established a drug discount program for Part D beneficiaries
                              that have entered the coverage gap (i.e., the period when a beneficiary is responsible for
                              paying 100 percent of his or her drug costs), effective January 1, 2011.



    OEI-03-10-00320           H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   12
      F   I   N
              F DI N
                   I N G S
                     D I N G S

                                                                Part D sponsors and State
  In 2009, pharmacy reimbursement amounts under
                                                                Medicaid agencies paid pharmacies
Medicare Part D and Medicaid were similar for most
                                                                similar amounts for most of the
            selected brand-name drugs but differed              selected brand-name drugs. 41
substantially for over half of selected generic drugs           However, for most of the generic
                            drugs under review, differences in pharmacy reimbursement between
                            the two programs were much greater.
                            Pharmacy reimbursement amounts differed by less than 2 percent for over
                            two-thirds of brand-name drugs
                            For 70 of the 100 brand-name drugs under review, the difference
                            between the average Part D and Medicaid unit reimbursement amounts
                            was less than 2 percent. Pharmacy reimbursement differed by less than
                            10 percent for an additional 20 drugs. Only 5 of the 100 brand-name
                            drugs had a difference in pharmacy reimbursement that exceeded
                            25 percent.42
                            As Figure 1 illustrates, for all 30 drugs for which the reimbursement
                            difference exceeded 2 percent, it was Medicaid that paid more. Overall,
                            Medicaid reimbursement was higher for 63 drugs; Part D
                            reimbursement was higher for the remaining 37. At the median,
                            Medicaid reimbursement amounts to pharmacies were 1 percent higher
                            than the Part D amounts for brand-name drugs.
                            Pharmacy reimbursement amounts differed by more than 15 percent for
                            over half of generic drugs
                            As Figure 2 illustrates, pharmacy reimbursement amounts under
                            Part D and Medicaid differed by more than 15 percent for 53 of the
                            100 generic drugs under review. In fact, the difference in pharmacy
                            reimbursement for 28 of these drugs exceeded 25 percent (6 of these
                            drugs had differences that exceeded 50 percent). 43 Overall, Medicaid
                            reimbursement was higher for 62 of these drugs; Part D reimbursement
                            was higher for the remaining 38. 44 At the median, Medicaid



                              41 This is generally similar to the results of our previous price comparison issued in 2009.

                            See OIG, Comparing Pharmacy Reimbursement: Medicare Part D to Medicaid,
                            OEI-03-07-00350.
                                42 Medicaid paid between 32 and 52 percent more than Part D paid for these five drugs.
                                43 Medicaid paid between 57 and 138 percent more than Part D paid for four of these

                            drugs. For the remaining two drugs, Medicaid paid 51 and 53 percent less than Part D.
                              44 Although differences in reimbursement for most of these drugs exceeded 15 percent, in

                            actual dollar terms, the differences were typically less than $0.25 per unit.



          OEI-03-10-00320   H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   13
    F         I    N      D I       N G       S


                                             reimbursement amounts were 3 percent higher than Part D amounts for
                                             selected generic drugs.
 Figure 1. Comparison of Unit Reimbursement Amounts in 2009 for the
 100 Brand-Name Drugs Under Review


                             Medicaid Paid Less Than Part D                                                                                                                               Medicaid Paid More Than Part D
                                         (n=37)                                                                                                                                                       (n=63)
                  50




                                                                                               -----------------------------------------
                  40                                                                    37
                                                                                                                                                                     33
                  30
      Drugs




                  20                                                                                                                                                               16

                  10                                                                                                                                                                                                  5            5
                                                                                                                                                                                                    4
                               0         0            0              0                                                      0
                   0




                                                           Percentage Difference in Pharmacy Reimbursement
Source: OIG analysis of 2009 Part D PDE data and 2009 Medicaid utilization data.



Figure 2. Comparison of Unit Reimbursement Amounts in 2009 for the 100 Generic
Drugs Under Review


                       Medicaid Paid Less Than Part D                                                                                                                                             Medicaid Paid More Than Part D
                                   (n=38)                                                                                                                                                                     (n=62)
           30
                                                                                                                          ----------------------------------------




                                                                                                                                                                                                22

           20                      18
                                                                                                                                                                                                                 16
   Drugs




                                                                                                                                                                                  13
                                              9
           10                                               7
                                                                                                                                                                     3                                                        4             4
                         2                                               1               1                                                   0
              0




                                                          Percentage Difference in Pharmacy Reimbursement

Source: OIG analysis of 2009 Part D PDE data and 2009 State Medicaid utilization data.




              OEI-03-10-00320                H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS                                                             FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D       14
 F       I       N     D I     N G      S


                                                                                Overall, Medicaid unit rebate
 In 2009, Medicaid unit rebate amounts for brand-
                                                                                amounts were 3 times greater
name drugs were substantially higher than Part D                                than Part D unit rebate
   unit rebate amounts; rebates for generic drugs                               amounts at the median for the
             under both programs were negligible                                100 brand-name drugs under
                                                                                review. For 68 of these drugs,
                                       manufacturers paid at least twice as much per unit in Medicaid rebates
                                       in 2009 compared to amounts paid per unit under Part D (Medicaid unit
                                       rebate amounts were over 10 times greater than Part D unit rebate
                                       amounts for 10 of these drugs). Manufacturers for an additional eight
                                       brand-name drugs responded that they did not provide any Part D
                                       rebates in 2009 (Medicaid rebates for these drugs ranged from 16 to
                                       54 percent of the unit costs for those drugs). Conversely, Part D unit
                                       rebate amounts exceeded Medicaid unit rebate amounts for just five of
                                       the brand-name drugs under review. Figure 3 illustrates the
                                       substantial difference in rebate amounts for Part D and Medicaid.45
Figure 3. A Comparison of Unit Rebate Amounts for Brand-Name Drugs

                     Medicaid Rebates Are Lower Than Part D Rebates                                              Medicaid Rebates Are Higher Than Part D Rebates
                                          (n=5)                                                                                      (n=87)
                                                                              --------------------------------




         30
                                                                                                                                                       23
                                                                                                                 19               20
 Drugs




         20
                                                                                                                                                                             15
                                                                                                                                                                                               10
         10
                                       3
                          1                                1                                             0
             0




                                                                Difference in Unit Rebate Amounts


Source: OIG analysis of 2009 Part D rebate data and 2009 Medicaid rebate data.

                                       Unlike rebates for brand-name drugs, rebates for generic drugs had
                                       little impact in reducing net expenditures. Part D sponsors collected
                                       virtually no rebates for generic drugs, according to manufacturer rebate


                                           45 Figure 3 includes only the 92 drugs for which there were both Medicaid and Part D

                                       rebates, thus enabling us to calculate the percentage difference. Manufacturers for the
                                       remaining eight brand-name drugs reported either (1) that they do not provide Part D
                                       rebates for these drugs or (2) that these drugs were not dispensed in retail pharmacies.



         OEI-03-10-00320               H I G H E R R E B AT E S R E S U LT   IN                      LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   15
F   I   N   D I       N G    S


                            data. Although manufacturers pay Medicaid rebates for generic drugs,
                            they reduced total expenditures for the 100 generic drugs under review
                            by only 3 percent. For individual generic drugs, Medicaid rebates
                            ranged from less than 1 percent to 9 percent of reimbursement.46 The
                            small amount of Medicaid expenditures and rebates attributed to
                            generic drugs is due to the fact that the AMPs, on which rebates are
                            based, for generic drugs are often much less than actual Medicaid
                            reimbursement amounts.
                            Medicaid rebates were substantially higher than Part D rebates for
                            brand-name drugs because manufacturers for virtually all brand-name
                            drugs under review paid inflation-based rebates
                            From 1996 through 2009, the basic URA for a brand-name drug was the
                            greater of 15.1 percent of the AMP or the difference between the AMP
                            and best price. In addition, if the AMP for a brand-name drug rose
                            faster than inflation, then the drug’s manufacturer was (and still is)
                            required to pay an additional rebate over and above the basic URA. For
                            98 of the 100 brand-name drugs under review, manufacturers paid this
                            additional rebate in all 4 quarters of 2009. 47
                            The inflation-based additional rebate is the primary reason Medicaid
                            rebates are substantially higher than Part D rebates. In the aggregate,
                            55 percent of the total Medicaid rebates owed by manufacturers for the
                            100 brand-name drugs under review ($1.6 billion out of $2.9 billion) are
                            owed because AMPs rose faster than inflation. For 70 of the
                            brand-name drugs, the additional rebate portion of the URA (i.e., the
                            inflation-based amount) actually exceeded the basic rebate portion (i.e.,
                            either 15.1 percent of the AMP or the difference between the AMP and
                            best price). The additional unit rebate amounts alone exceeded the
                            Part D unit rebate amounts for 69 brand-name drugs 48 under review
                            and were at least two times more than the Part D rebate amounts for
                            38 of these drugs.




                                46 CMS’s rebate data did not contain rebate amounts for one of the selected generic
                            drugs. We excluded the drug from this portion of the analysis.
                                47 The manufacturer of one of the remaining two drugs paid the additional rebate for
                            that drug in three of four quarters of 2009; the manufacturer for the other drug did not pay
                            any additional rebates for that drug in 2009.
                                48 This total does not include the eight brand-name drugs for which the manufacturers

                            reported either (1) that they do not provide Part D rebates for these drugs or (2) that these
                            drugs were not dispensed in retail pharmacies.



    OEI-03-10-00320         H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   16
    F      I       N   D I   N G     S


                                                                        Although average Part D and
After accounting for rebates, Medicaid net costs
                                                                        Medicaid reimbursement amounts
      for selected brand-name drugs were much                           for most brand-name drugs under
                      lower than Part D net costs                       review were similar, Medicaid
                                   unit rebates for these drugs were substantially higher than those under
                                   Part D. Consequently, Medicaid’s net unit costs (i.e., pharmacy
                                   reimbursement minus rebates) were much lower (34 percent at the
                                   median) than net unit costs under Part D in 2009.
                                   As previously stated, Medicaid unit reimbursement amounts were
                                   actually higher than Part D unit reimbursement amounts for
                                   63 brand-name drugs. However, after accounting for rebates, Medicaid
                                   net unit costs were higher than Part D net unit costs for only 7 drugs;
                                   Part D net unit costs exceeded Medicaid net unit costs for the remaining
                                   93. In fact, Medicaid net unit costs were more than 25 percent below
                                   Part D net unit costs for nearly three-fourths of these brand-name
                                   drugs. Figure 4 illustrates the effect of rebates on drugs costs.
Figure 4. Comparison of Average Medicare Part D and Medicaid Net and Gross
Costs for Brand-Name Drugs


          125
                                                                                ___________________________________________




          100                                                                                                                                            93



           75                                                                                                                                                                                Medicaid
                                                                                                                                                                                             Pays More
                                63
  Drugs




           50                                                                                                                                                                                Medicaid
                                                     37                                                                                                                                      Pays Less


           25

                                                                                                                                    7

               0
                               Gross Unit Costs                                                                                     Net Unit Costs

Source: OIG analysis of 2009 Part D PDE data, Part D manufacturer rebates, Medicaid utilization data, and Medicaid rebates.




          OEI-03-10-00320          H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS                                FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   17
F   I   N   D I       N G      S


                             Medicaid collected nearly two-thirds as much in rebates as Part D despite
                             having only one-fourth of the expenditures
                             As further evidence of Medicaid’s substantially higher unit rebate
                             amounts, Medicaid collected nearly two-thirds as much in rebates as
                             Part D ($2.9 billion vs. $4.5 billion) for the selected brand-name drugs
                             despite having only about one-fourth of the expenditures ($6.4 billion vs.
                             $24 billion).
                             Overall, rebates reduced Part D expenditures by 19 percent for the
                             100 brand-name drugs under review (from $24 billion to $19.5 billion) in
                             2009. Medicaid rebates accounted for a substantially higher percentage
                             of total expenditures, reducing Medicaid spending for the 100 drugs
                             under review by 45 percent (from $6.4 billion to $3.5 billion). See
                             Figure 5 for an illustration on the effect of rebates on expenditures for
                             brand-name drugs.


        Figure 5. Rebates as a Percentage of Expenditures Under Part D and
        Medicaid
                 Part D Expenditures for 100 Brand-Name Drugs                                Medicaid Expenditures for 100 Brand-Name Drugs

                   Part D
                  Rebates
                   (19%)                                                                    Medicaid
                                                                                            Rebates
                                                                                             (45%)
                                                                        Part D Costs
                                                                                                                                                             Medicaid
                                                                                                                                                              Costs




        Source: OIG analysis of 2009 Part D PDE data, manufacturer rebate data, 2009 Medicaid utilization data, and Medicaid rebate data.




    OEI-03-10-00320          H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   18
F   I   N
       C DO I NN CG LS U S I O N


                      Prescription drug rebates reduce the program costs of both Medicare
                      Part D and Medicaid. Medicaid rebates are defined by statute;
                      additional rebates are required when prices for brand-name drugs
                      increase faster than inflation. Unlike the Medicaid program, Part D
                      sponsors (or contractors acting on their behalf) negotiate rebates with
                      drug manufacturers without any statutory requirements on rebate
                      amounts. In fact, the law establishing the Part D program expressly
                      prohibits the Government from instituting a price structure for the
                      reimbursement of covered Part D drugs.
                      In this review, we found that Part D sponsors and State Medicaid
                      agencies paid pharmacies similar amounts for most brand-name drugs
                      under review. However, statutorily defined Medicaid unit rebate
                      amounts for brand-name drugs exceeded Part D unit rebate amounts by
                      a substantial margin. As a result, Medicaid collected nearly two-thirds
                      as much as Part D in rebates for the 100 brand-name drugs ($2.9 billion
                      vs. $4.5 billion), despite having only about one-fourth of the
                      expenditures ($6.4 billion vs. $24 billion).
                      Despite Part D’s larger market share (including dual eligible
                      beneficiaries who once received drug coverage under Medicaid), Part D
                      does not collect as much in rebates that reduce program expenditures.
                      A major driver of the higher Medicaid rebates was the additional
                      amount owed when prices for brand-name drugs increase faster than
                      inflation. This not only produces additional Medicaid rebates, but also
                      helps protect the program from increased costs when manufacturers
                      raise prices.
                      Furthermore, Medicaid rebates for brand-name drugs may increase as a
                      result of the ACA provisions that raise the rebate percentage. Given the
                      potential impact on beneficiary and Government expenditures, we
                      believe that it is important for CMS to continually examine any
                      differences in how each program collects rebates.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS agreed with our overall findings. CMS stated that it was pleased
                      OIG confirmed that the Medicaid rebate program is working well and
                      providing substantial rebates to offset the high costs of prescription
                      drugs. CMS agreed that the ACA may further increase Medicaid



    OEI-03-10-00320   H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   19
C O   N   C L      U   S   I     O      N


                       rebates for brand-name drugs and that it is important to continue to
                       examine the differences in how each program collects rebates.
                       We did not make any changes to the report based on CMS’s comments.
                       For the full text of CMS’s comments, see the Appendix.




 OEI-03-10-00320       H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   20
    A P PEN D                           x

     Agency Comments



           /"VlV~.,


       (       ~	 DEPARTMENT OF HEALTH                & HUMAN SERVICES                           Centers tor Medicare & Medicaid Services

           ,'S!­                                                                                 Deputy Administrator
                                                                                                 Baltimore. MD 21244-1850




                  DATE:             JUL 1 5 2011
                  TO: 	            Daniel R. Levinson 

                                   Inspect,or eeneral 

                                                     /S/
                  FROM: 	          MMilyn Tavenner 

                                   PrincipallDeputy Administrator 


                   SUBJECT: 	 Office of Inspector General (DIG) Draft Report: Higher Rebates for Brand-Name
                              Drugs Result in Lower Costs for Medicaid Compared to Medicare Part D
                              (OEI-03-10-00320)


                  Thank you for the opportunity to review and comment on the subject OIG Draft Report entitled:
                  "Higher Rebates for Brand-Name Drugs Result in Lower Costs for Medicaid Compared to
                  Medicare Part D" (OEI-03-1 0-00320). This report was required by Section 33J3(b), Study and
                  Report on Prescription Drug Prices Under Medicare Part D and Medicaid, of the Affordable Care
                  Act. This report compares pharmacy reimbursement and manufacturer rebates under Medicare
                  Part D to Medicaid for the 100 brand-name and 100 generic drugs with the highest Part D
                  expenditures using 2009 data. This report also compares each program's net drug costs and
                  examines the effect that differences may have on overall program costs. The Centers for
                  Medicare & Medicaid Services (CMS) agrees with the overall findings in the DIG report
                  acknowledging the efforts CMS has made to improve lowering the costs in the Medicaid drug
                  program.

                   CMS was pleased the DIG confirmed that the Medicaid rebate program is working well, and
                   providing substantial rebates to offset the cost of the high costs of prescription drugs. CMS also
                   acknowledges that the OIG correctly attributed differences in cost to statutory requirements
                   regarding rebates in Medicaid and Medicare Part D. Unlike in the Medicaid program, Part D
                   sponsors (or contractors acting on behalf of sponsors) negotiate rebates with drug manufacturers
                   without any statutory requirements on rebate amounts, and the Government is expressly
                   prohibited from instituting a price structure for the reimbursement of covered Part D drugs.
                   Additionally, we agree with the DIG that the Affordable Care Act may further increase brand
                   name drug rebates in the Medicaid program and that it is important for CMS to continually
                   examine the differences in how each program collects rebates.

                      We would like to thank the DIG for their efforts in reviewing pharmacy reimbursement and
                      rebates under Medicare Part D and Medicaid and look forward to working with the OIG on (his
                      and other issues in the future.




OEI-03-10-00320             HIGHER REBATES RESULT IN LOWER DRUG COSTS FOR MEDICAID COMPARED TO MEDICARE PART D                     21
   A C K N O W L E D G M E N T S




                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and David E. Tawes, Director of the Medicare and
                  Medicaid Prescription Drug Unit.
                  Edward K. Burley served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office who contributed to the report include Daniel
                  J. Mallinson; central office staff who contributed include Eddie Baker,
                  Jr., and Kevin Manley.




OEI-03-10-00320   H I G H E R R E B AT E S R E S U LT   IN   LOWER DRUG COSTS   FOR   M E D I C A I D C O M PA R E D   TO   M E D I C A R E PA R T D   22
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
